<html>
<title> - PUBLIC HEALTH RESPONSE TO SWINE FLU</title>
<body><pre>[Senate Hearing 111-272]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-272

                  PUBLIC HEALTH RESPONSE TO SWINE FLU

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                     APRIL 28, 2009--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
49-368 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
ROBERT C. BYRD, West Virginia        THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            CHRISTOPHER S. BOND, Missouri
TOM HARKIN, Iowa                     T4MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 JUDD GREGG, New Hampshire
PATTY MURRAY, Washington             ROBERT F. BENNETT, Utah
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
DIANNE FEINSTEIN, California         SAM BROWNBACK, Kansas
RICHARD J. DURBIN, Illinois          LAMAR ALEXANDER, Tennessee
TIM JOHNSON, South Dakota            SUSAN COLLINS, Maine
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
FRANK R. LAUTENBERG, New Jersey
BEN NELSON, Nebraska
MARK PRYOR, Arkansas
JON TESTER, Montana
ARLEN SPECTER, Pennsylvania

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

 Subcommittee on Departments of Labor, Health and Human Services, and 
                    Education, and Related Agencies

                       TOM HARKIN, Iowa, Chairman
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
HERB KOHL, Wisconsin                 JUDD GREGG, New Hampshire
PATTY MURRAY, Washington             KAY BAILEY HUTCHISON, Texas
MARY L. LANDRIEU, Louisiana          RICHARD C. SHELBY, Alabama
RICHARD J. DURBIN, Illinois          LAMAR ALEXANDER, Tennessee
JACK REED, Rhode Island
MARK PRYOR, Arkansas
ARLEN SPECTER, Pennsylvania
                           Professional Staff

                              Ellen Murray
                              Erik Fatemi
                              Mark Laisch
                            Adrienne Hallett
                             Lisa Bernhardt
                       Bettilou Taylor (Minority)
                    Sudip Shrikant Parikh (Minority)
                        Dale Cabaniss (Minority)

                         Administrative Support

                              Teri Curtin
                         Jeff Kratz (Minority)






                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening Statement of Senator Tom Harkin..........................     1
    Prepared Statement of........................................     4
Statement of Rear Admiral Anne Schuchat, M.D., Interim Deputy 
  Director, Science and Public Health Program, Centers for 
  Disease Control and Prevention, Department of Health and Human 
  Services.......................................................     5
Statement of Paul Jarris, M.D., Executive Director, Association 
  of State and Territorial Health Officials......................     9
Statement of Anthony Fauci, M.D., Director, National Institute of 
  Allergy and Infectious Diseases, National Institutes of Health, 
  Department of Health and Human Services........................     9
Statement of Senator Arlen Specter...............................    19
    Prepared Statement of........................................    20
Statement of Senator Herb Kohl...................................    20
Statement of John R. Clifford, DVM, Deputy Administrator, 
  Veterinary Services, United States Department of Agriculture...    21
Statement of Senator Mark Pryor..................................    23

 
                  PUBLIC HEALTH RESPONSE TO SWINE FLU

                              ----------                              


                        TUESDAY, APRIL 28, 2009

                           U.S. Senate,    
    Subcommittee on Labor, Health and Human
     Services, and Education, and Related Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 1:08 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Tom Harkin (chairman) presiding.
    Present: Senators Harkin, Kohl, Pryor, Specter, and 
Hutchison.


                opening statement of senator tom harkin


    Senator Harkin. We are here for a public hearing on the 
recent outbreak of the so-called swine flu in this country and 
around various parts of the world.
    I first want to thank our witnesses for coming here today 
on such short notice--I only called yesterday--to discuss the 
current outbreak of the so-called swine influenza.
    I wanted to have this hearing to get as much information 
out to the public as possible. There is a lot being written out 
there. There is a lot of anxiety, understandably so as to where 
we are in this; what is the threat; and where do we go from 
here?
    Well, so far, this flu outbreak has centered in Mexico, as 
we know. As of just an hour ago, there have been 64 confirmed 
cases in 5 States. And I believe there are additional possible 
cases now being analyzed.
    Many are already calling this a flu pandemic, because this 
is a virus for which people have little or no immunity and for 
which there is no vaccine, and it's capable, obviously, of 
sustainable human-to-human transmission.
    Just for the record and for a little background, this 
subcommittee has provided over $6 billion for pandemic flu 
preparedness activities since 2005. At that time, many experts, 
including Dr. Fauci, who's here with us, told us that it was 
not a matter of whether there would be a flu pandemic, but 
rather when it would happen.
    Of course, at that time, we were all concerned about the 
H5N1 virus circulating among birds, primarily in Southeast 
Asia, the so-called avian virus. The H5N1 virus was described 
as a very robust virus which had been contracted by humans from 
birds, for which people had little or no immunity and for which 
there was no vaccine. However, the H5N1 virus had not yet and 
still has not mutated to a virus significantly capable of 
human-to-human transmission.
    The current so-called swine flu virus is obviously a 
different virus. Like H5N1, it's one for which people have 
little or no immunity and for which there's no vaccine. 
However, unlike H5N1, the H1N1 virus is capable of human-to-
human transmission. Dr. Fauci, I can remember you telling us 
that we may be preparing for an avian influenza pandemic, but 
the next pandemic could come from somewhere else. You were 
right.
    The good news is that our investments in pandemic 
preparedness are paying off in this outbreak. We have been able 
to improve surveillance, which may have played a part in 
recognizing some of the early cases. We have stockpiled 
antivirals and other medical supplies, which are now being 
transported--later we'll get into that--to other parts of the 
country to help local governments' response to the current 
outbreak.
    We have strengthened the capacity of the Centers for 
Disease Control and Prevention (CDC) to respond to pandemics 
and have provided funds to improve State and local government 
preparedness. We'll be talking about that with Dr. Jarris.
    In addition, we have moved forward in developing this 
country's capacity to quickly produce vaccine in response to a 
pandemic. Where is that statement that I had?
    As of August 2005--or I should say as of 2005, when we 
first started on this, there was one company in the United 
States that could produce flu vaccines, and that was an egg-
based process, which took a lot of time.
    Through our hearing process, it was decided that we needed 
to ramp up the construction of facilities so that we could 
produce cell-based vaccines. And I could stand corrected on the 
terms by Dr. Fauci or Dr. Schuchat, but cell-based vaccines 
would be more rapidly produced than using the old egg-based 
processes.
    And so since that time we have put now over $3 billion--of 
the $6 billion I mentioned, we've put over $3 billion in 
developing cell-based vaccines and the facility to make those. 
Now, I've been tracking this since that time. Periodically, I 
have people in my office talk to me about where we are in this 
process.
    And so earlier this year, I put $870 million--that's what 
it finally boiled down to--$870 million into the stimulus bill 
to get money out to ramp up the building of these facilities. I 
was disappointed that the money was taken out of the recovery 
package, because the purpose of that funding was to develop our 
capacity to produce vaccines quickly in the United States in 
response to any type of influenza or any other viral pandemic.
    This capacity is not there yet, and I'm not saying it would 
be if we'd put that $870 million--I'm not saying that. But the 
current outbreak does remind us that we need to be prepared and 
to provide those funds as soon as possible so as not to delay 
the development of that capacity.
    These things all take time to do, and that's the reason I 
fought so hard to include the money in that package. I thought 
it was critically important to get started on that work 
immediately to ramp it up. And I also thought it would have a 
stimulative effect, creating jobs in research and planning and 
developing new vaccine facilities.
    I want to state this very clearly. That's why I will push 
to include this money in the supplemental appropriations bill 
that Congress will be considering later this month.
    So the purpose of today's hearing is first, to get an 
update from you on the situation; secondly, to determine 
whether there is a need for additional Federal resources from 
this subcommittee to address this outbreak. And, I would also 
would like to learn how our investments in pandemic 
preparedness have made a difference. We may even make that the 
subject of a later hearing when we know more.
    We have Dr. John Clifford, from USDA. There's been a lot of 
talk about swine and if you can get this from pigs or hogs or 
eating pork, and we want to get into that with you and what 
USDA is doing.
    Given the short notice, I asked the witnesses not to 
prepare an opening statement. Just be ready to respond to 
questions. I will first recognize my colleague from Texas, 
Senator Hutchison.
    Senator Hutchison. Well, thank you very much, Mr. Chairman. 
I'm very pleased that you've called this hearing, because in my 
home State of Texas, we have three confirmed cases in one 
school district, and the whole school district has now been 
shut down. So I am very concerned about the response and 
particularly, the response for incoming airplanes, as well as 
cross-border traffic with Mexico.
    I do have to leave at 1:25 p.m. for a 1:30 p.m. commitment, 
so I want to hear--if we're going to be able to ask questions, 
then maybe I will have time to ask the questions of--that are 
mostly on my mind, which are the questions about are we doing 
enough and what should we be doing at the border that would 
duplicate what some of the other countries around the world are 
doing right now for traffic coming in, especially from Mexico, 
since we know that it is the genesis of much of this.
    So I would certainly bow to your wishes, but if I could ask 
a question before 1:25 p.m., I would really appreciate it.
    Senator Harkin. Thank you very much, Senator Hutchison. I 
will try to honor that. We're hearing from four experts here 
today. Rear Admiral Anne Schuchat. Dr. Schuchat is the Interim 
Deputy Director for the Science and Public Health Program at 
CDC. She has spent more than 20 years at the Centers for 
Disease Control, working in immunization, respiratory, and 
other infectious diseases. She was named an Assistant Surgeon 
General of the United States Public Health Service in 2006.
    We have again Dr. Tony Fauci, the Director of the National 
Institute of Allergy and Infectious Diseases at the National 
Institutes of Health (NIH). Dr. Fauci is certainly no stranger 
to this subcommittee, having testified here over the last 20 
years. Dr. Fauci came to NIH in 1968 and, as I said, is the 
Director of the National Institute of Allergy and Infectious 
Diseases.
    Dr. Paul Jarris has served as the Executive Director of the 
Association of State and Territorial Health Officials since 
2006. Prior to that, he was the Commissioner of Health for the 
State of Vermont.
    Dr. John Clifford is the Deputy Administrator for the 
Veterinary Services Program at the Department of Agriculture's 
Animal and Plant Health Inspection Service. In this position, 
he provides leadership for safeguarding U.S. animal health.


                           prepared statement


    Thank you all again for coming on such short notice.
    [The statement follows:]
                Prepared Statement of Senator Tom Harkin
    Good morning. I want to thank our witnesses for coming here today 
on such short notice to discuss the current outbreak of swine 
influenza. So far, this flu outbreak has centered in Mexico but there 
have been 64 confirmed U.S. cases in 5 States and additional possible 
cases are being analyzed. Many are already calling this a flu pandemic 
because this is a virus for which people have little or no immunity and 
for which there is no vaccine. And it is capable of human-to-human 
transmission.
    This subcommittee has provided over $7 billion for pandemic flu 
preparedness activities since fiscal year 2006. At that time, many 
experts--including Dr. Fauci, who is here today--told me that it was 
not a matter of whether there would be a flu pandemic but rather when 
it would happen. Of course, at that time, we were all concerned about 
the H5N1 virus circulating among birds, primarily in Southeast Asia. 
The H5N1 virus was described as a very robust virus which had been 
contracted by humans from birds, for which people had little or no 
immunity, and for which there was no vaccine. However, the H5N1 virus 
had not yet, and still has not, mutated to a virus capable of human-to-
human transmission.
    The current swine flu virus is, obviously, a different virus. Like 
H5N1, it is one for which people have little or no immunity and for 
which there is no vaccine. However, unlike H5N1, this H1N1 flu virus is 
capable of human-to-human transmission. Dr. Fauci, I can remember you 
telling me that we may be preparing for an avian pandemic but the next 
pandemic could come from somewhere else. You were right.
    The good news is that our investments in pandemic preparedness are 
paying off in this outbreak. We have been able to improve surveillance, 
which may have played a part in recognizing some of these early cases. 
We have stockpiled antivirals and other medical supplies which are now 
being transported to other parts of the country to help local 
governments' response to the current outbreak. We have strengthened the 
capacity of Centers for Disease Control and Prevention (CDC) to respond 
to pandemics and we have provided funds to improve State and local 
government preparedness. In addition, we have moved forward in 
developing this country's capacity to quickly produce vaccine in 
response to a pandemic.
    The purpose of today's hearing is, first, to get an update on the 
situation, and, second, to determine whether there is a need for 
additional Federal resources from this subcommittee to address this 
outbreak. I also would like to learn how our investments in pandemic 
preparedness have made a difference--we may even make that the subject 
of a later hearing when we know more.
    Given the short notice, I have not asked out witnesses to prepare 
an opening statement but have only asked them to be ready to respond to 
questions.
    We'll be hearing from four experts. They are:
    Rear Admiral Anne Schuchat, MD. Dr. Schuchat is the Interim Deputy 
Director for the Science and Public Health Program at the CDC. She has 
spent more than 20 years at CDC working in immunization, respiratory, 
and other infectious diseases. She was named an Assistant Surgeon 
General of the United States Public Health Service in 2006. Dr. 
Schuchat graduated from Swarthmore College and Dartmouth Medical 
School.
    Anthony Fauci, MD. Dr. Fauci is the Director of the National 
Institute of Allergy and Infectious Diseases at the National Institutes 
of Health. Dr. Fauci came to the National Institutes of Health (NIH) in 
1968 after completing his residency at The New York Hospital Cornell 
Medical Center. He received his M.D. degree from Cornell University 
Medical College.
    Paul Jarris, MD. Dr. Jarris has served as the Executive Director of 
the Association of State and Territorial Health Officials since 2006. 
Prior to that position, Jarris was Commissioner of Health for the State 
of Vermont. Dr. Jarris graduated from the University of Vermont and 
received his M.D. degree from the University of Pennsylvania School of 
Medicine.
    John R. Clifford, DVM. Dr. Clifford is the Deputy Administrator for 
the Veterinary Services program at United States Department of 
Agriculture Animal and Plant Health Inspection Service (APHIS). In this 
position, he provides leadership for safeguarding U.S. animal health. 
Prior to joining APHIS in 1985, Dr. Clifford received his DVM and BS 
degrees in animal science from the University of Missouri.

    Senator Harkin. Dr. Schuchat, let me start with you. Again, 
as I said, there's a lot of anxiety right now across the 
country. Our offices--I'm sure yours too, Senator Hutchison--
we're getting flooded with emails. People are calling our 
offices. What should they do?
    People are very concerned. They're concerned about their 
children in school, because a lot of the cases have involved 
school children. And so the floor is yours. What would you like 
to tell the American people? How concerned should they be, 
where are we, and what's ahead, Dr. Schuchat?
STATEMENT OF REAR ADMIRAL ANNE SCHUCHAT, M.D., INTERIM 
            DEPUTY DIRECTOR, SCIENCE AND PUBLIC HEALTH 
            PROGRAM, CENTERS FOR DISEASE CONTROL AND 
            PREVENTION, DEPARTMENT OF HEALTH AND HUMAN 
            SERVICES
    Dr. Schuchat. Thank you, too. People are concerned, and we 
at CDC are also concerned. It's a difficult situation. It's a 
serious situation. We in the United States, as you've said, 
have 64 cases, now laboratory-confirmed, from the swine 
influenza virus. Five of those patients were hospitalized.
    And we know that the situation in Mexico is a bit more 
severe, probably much more severe, based on the reports that we 
have. I think it's important for people to know that there's a 
lot we can do, and we're aggressively responding. The 
investments that have been made into preparedness are making a 
difference every day. We actually know many things that can 
reduce the illness and spread of transmission, and we're 
focusing on them.
    We have teams in the field in the areas where there are 
outbreaks right now. We have deployed assets of antivirals to 
the States that--actually, we're on--they're en route to the 
affected States, and they'll be going to all the rest of the 
States. And we are making sure that people know they have a 
role too.
    You know, I think that it's easy to think that the 
Government or the World Health Organization (WHO) is going to 
take care of everything, but actually, each of us has a role. 
We can reduce respiratory infections every day if we make sure 
that we wash our hands, that we cover our cough and sneeze, 
that if we're sick, we stay home from work or from school, that 
we don't get on an airplane and spread our infections to 
others.
    Those are things that sound really simple, but they 
actually are effective. And so I think that when people are 
concerned about what's going to happen, I want them to know 
that there are lots of steps they can take themselves.
    Unfortunately, influenza virus is very unpredictable, so I 
can't tell you exactly what's going to happen next. I wish that 
I could. But I can tell you that we are watching closely and 
that we're responding aggressively. We're making sure that we 
get guidance out to the clinical community, the public health 
community, to the workforce that may be in higher-risk 
situations, to schools and parents, and that as we learn more, 
we're going to share the information that we have.
    So I think it's important for people to know that there's a 
lot you can do yourself. You can also be planning ahead in case 
things get worse. But that we're really working hard to make 
sure that we have as strong a response as possible.
    Senator Harkin. I know you don't have a crystal ball, but 
in your judgment, do you think this virus will spread more in 
the United States?
    Dr. Schuchat. I do expect more cases, and I expect more 
States to be affected. I think we can't assume that we'll have 
as mild illness as we've seen at the beginning of the cases 
that we've detected. I think we really need to be prepared for 
a worsening of the situation.
    And it's also important that people realize it's more of a 
marathon than a sprint here. Even if we do see cases come down, 
in the past, when there have been large-scale pandemics of 
influenza, sometimes we've seen a drop in the flu cases at the 
time that you would usually see a decrease with seasonal flu, 
but we've seen additional waves in the fall or winter.
    So I think we have to be prepared that even if it starts to 
look a little better, it might get worse. But I don't want to 
over-alarm people, because we aren't in the same kind of 
situation as Mexico at this point.
    Senator Harkin. Just two follow-ups. If you knew someone 
who had planned a vacation or a trip to Mexico, had their plane 
tickets purchased and were going to go in the next week or two 
or three, what would you say to them?
    Dr. Schuchat. You know, yesterday, CDC officially issued a 
travel advisory asking people to defer nonessential travel to 
Mexico. We think that's a prudent response. If you are going to 
go, there are some steps that you can take to protect yourself 
to make sure that your health is good while you're traveling.
    We didn't do that immediately. We waited until there was 
enough information that there was confirmed swine influenza 
causing severe disease in a number of places in Mexico. But we 
issued that travel warning.
    Senator Harkin. A practical question now, also another 
practical question. We are in the height of a kind of allergy 
season. A lot of people are sneezing. Count me as one of them. 
And, you know, you get a little raspy throat. So what would 
someone do--I mean, how do you know if it is it an allergy or 
is it something else?
    Again, what would you advise people who find themselves 
sneezing a lot and perhaps have some irritable throat 
membranes, nasal passages? What would you advise someone like 
that?
    Dr. Schuchat. Yes. You know, respiratory symptoms are 
really common from both allergies, as you describe, and from a 
number of infectious agents, bacteria, and viruses. And most 
respiratory symptoms are not swine flu.
    We've alerted people in the affected areas that if they 
have high fever, respiratory symptoms, like cough or sore 
throat, body aches, headache, and they have recently traveled 
to Mexico or one of the affected areas, that it's a good idea 
to consult with their doctor.
    Part of the investments in preparedness for flu helped us 
develop some new diagnostic tests, so we're better able to tell 
if it's flu or not, and if it is flu, the State health 
department laboratories now can find out if it's this atypical 
influenza, and we at CDC can confirm if it's the swine flu or 
not.
    So we don't think the allergy kind of symptoms need to be--
you need to see a doctor for those. But we also think you 
should use your judgment. If you're feeling quite sick, then 
talk to your doctor.
    Senator Harkin. So you would have to have one of the other 
indications, a high fever or something like that to go along 
with it, before you might have an indication that it would be a 
swine flu?
    Dr. Schuchat. You know, it's not possible for any of us 
individually to know if the symptoms that we're having are 
swine flu or something else. You really need a doctor's visit 
and a laboratory test. But most people don't need to worry--
that respiratory symptoms are pretty common. And as I said, you 
can do a lot to protect yourself from spreading those 
respiratory infections.
    Senator Harkin. I have more questions along the lines of 
getting the antivirals out around the country, but Senator 
Hutchison has to leave, and I want to defer to her for 
questions.
    Senator Hutchison. Thank you. I do thank you, Mr. Chairman, 
because my concern is--I think you have answered a lot of the 
questions about what people can do. I have now seen that we 
have confirmed six in Texas.
    I thought the Dallas County ones had not been confirmed, 
but they have been. And then the ones near San Antonio are 
confirmed and the schools are closed. Now--not in San Antonio, 
but in the Schertz-Cibolo-Universal City School District.
    So we do have now a real impact, and it could get bigger. 
Some of the European countries are taking measures to screen 
everyone who would go on a plane from Mexico to their country. 
And, of course, we have border stations all through the South 
and Southwest between Texas, Arizona, New Mexico, and 
California with Mexico, people walking across every day.
    My question is, what should we be doing to protect us in 
every possible way from people coming in from Mexico who might 
not have the symptoms right now? So asking the question of them 
may not be sufficient. What should we be doing--to either you, 
Doctor, or Dr. Fauci or any of you who would have an opinion.
    Dr. Schuchat. First I just want to say that I know it's a 
really difficult time in Texas, that schools are closed and 
people are kind of scared, and I feel for the communities there 
that are trying to understand what's going on in a very 
uncertain time.
    Based on the pattern of illness that we're seeing here in 
the United States, we don't think that this virus can be 
contained, that we can stop it at the border, but we do think 
we can reduce the impact of its spread and we can reduce its 
impact on health.
    And so what we've been advising and I know is occurring in 
Texas is what we call community mitigation, where an ill person 
should stay home and be isolated, not spread illness to others, 
that household contacts can take special steps to avoid getting 
ill and to avoid spreading illness they may be incubating, that 
when there are cases in a school, we've advised closure of the 
school, and that if there are community gatherings related to a 
school, that those should be cancelled for the short term.
    So we think those are--from history, we have learned that 
even in the terrible 1918 pandemic, those kind of community 
efforts actually spared several communities. That's what we 
think is important.
    We also have sent the assets, the antiviral drugs and the 
personal protective equipment to the States, and there is 
material en route to Texas now.
    Senator Hutchison. So you're saying that you think we 
should not try to do what we can to keep people from coming in 
with the disease, but instead, just try to mitigate the spread?
    Dr. Schuchat. You know, I think it's important for people 
who are planning trips to Mexico to know that we have advised 
them to defer those trips unless they're essential. We do have 
efforts at quarantine stations and with the borders that are 
intensive, but not shutting the border down, and I think that 
those are prudent at this point.
    Senator Hutchison. Well, we certainly don't want to 
interfere with commerce to any extent greater than necessary, 
but wouldn't having the ability to take temperature, for 
instance, for people who would be getting on a plane from 
Mexico to come into the United States, that would provide some 
kind of early detection that perhaps that person should not be 
traveling into the United States right now, wouldn't that be 
prudent, or is that what you consider to be too much?
    Dr. Schuchat. It's not really a question of too much, it's 
a question of where do we think our efforts can have the most 
benefit at this point. So as a public health expert and 
infectious disease specialist, looking at the pattern of 
illness that we have, the frequency of travel across the 
borders, the most effective efforts, I think, are at intensive 
detection for cases, strong efforts at that community 
mitigation, the detection and isolation, and----
    Senator Hutchison. What----
    Dr. Schuchat [continuing]. Closing schools, as appropriate.
    Senator Hutchison. I'm just not following this, I don't 
think. It just seems like an early detection that's 
relatively--would be, I would assume, pretty inexpensive, to 
take someone's temperature before they got on an airplane, and 
if it's heightened, that is one of the first symptoms even 
before you feel the symptoms of the flu.
    It just seems to me that taking a little more precaution 
about someone coming in, because we've seen this spread pretty 
rapidly when it does get into our country, wouldn't there be 
something more prudent in between what you're saying, which is 
let it come in, but try to stop it from spreading, and stop it 
before it comes in?
    Dr. Schuchat. You know, the information about temperature 
screening is not very robust, in terms of the effectiveness. 
During the SARS epidemic, there were efforts to do that in some 
countries. We did pretty well here in this country without 
going to that step, and places that did temperature screening 
didn't necessarily have great results. There are some quality 
of testing issues.
    So I think that people ask about that. It's important to 
know that here in the United States, our routine quarantine 
efforts, in partnership with Customs and Border Protection, are 
actually more intense than in most countries, the countries 
that now have introduced the temperature screening.
    So I think that it's--you know, it's difficult, and I'm 
sure that it's a very difficult situation in Texas. But based 
on what I know, I think we're taking appropriate steps.
    Senator Hutchison. Any other opinions on the panel that 
would----
STATEMENT OF PAUL JARRIS, M.D., EXECUTIVE DIRECTOR, 
            ASSOCIATION OF STATE AND TERRITORIAL HEALTH 
            OFFICIALS
    Dr. Jarris. Senator Hutchison, what I think that was going 
on is there is passage [inaudible]. Somebody appears to be ill, 
they go through further questioning to determine if they are 
ill, and then that will be handled.
    I think one of the difficulties we have, though, is there's 
anywhere between 24 hours and 5 days between exposure to the 
virus and actually becoming sick, and there's no way to detect 
that at the border.
    So as Dr. Schuchat is saying, the system is very imperfect. 
In a situation like this, we're all going to wish that there's 
more we could do, but sometimes it's just not possible.
    So I do think the CDC and the Border Patrol are taking the 
prudent measures based on what works at this time. And as you, 
we all wish there was more we could be doing.
    Senator Hutchison. Well, I think what you've said is 
relevant, that the time period where it would show or--from the 
time you're exposed until you know you're sick seems to vary 
greatly. And so you wouldn't necessarily be able to tell 
exposure. It could be in the first couple or 3 days, but you 
wouldn't maybe get sick for up to 20?
    Dr. Jarris. Well, I believe that what I've been 
understanding is it's somewhere between 24 hours on the early 
side and up to 5 days on the late side, but I----
    Senator Hutchison. Oh, 5 days.
    Dr. Jarris [continuing]. Defer to the experts here.
    Senator Hutchison. So the whole--everyone on the panel 
agrees that we should not be taking further steps to test 
people before they get on a plane to enter our country from 
Mexico or in the border stations where people cross, that we 
are doing everything that would be prudent? Would everyone 
agree with that?
STATEMENT OF ANTHONY FAUCI, M.D., DIRECTOR, NATIONAL 
            INSTITUTE OF ALLERGY AND INFECTIOUS 
            DISEASES, NATIONAL INSTITUTES OF HEALTH, 
            DEPARTMENT OF HEALTH AND HUMAN SERVICES
    Dr. Fauci. Yes, I would support what Dr. Schuchat said. 
There's a delicate balance, as you've pointed out, about doing 
something that might not really be very effective, versus 
putting most of the effort on the kinds of mitigations that we 
were trying to do in the community.
    So I would agree that this is something that has undergone 
a lot of discussion, and the decision that was made by the CDC, 
I fully support.
    Senator Hutchison. And the temperature is not necessarily a 
relevant precursor?
    Dr. Fauci. It's not--I wouldn't say it's not relevant. It 
can be. It's imprecise. There are a lot of situations where 
we'd be getting people out that have nothing at all to do with 
the disease.
    The decision was made not to go with what's called an 
active type of approach as opposed to a passive approach, where 
you say, ``How do you feel? Do you feel ill?'' And right now, 
as was mentioned, we are taking more of a passive approach, 
rather than the active approach that was just mentioned.
    Senator Hutchison. Mr. Chairman, thank you for letting me 
have that opportunity.
    Senator Harkin. Thank you. Obviously, Texas is on the 
firing line on this one, right down there. I asked about the 
playing field, but you're right, so many people come across 
that border every day.
    Senator Hutchison. Yes, our Southwestern border with 
Mexico, people are coming in every day. And if they show 
symptoms of being sick, of course, they are detained, but if 
they don't, then they may have that early----
    Senator Harkin. Exposure, but----
    Senator Hutchison [continuing]. Exposure, but not yet show 
any symptoms, and they're coming in.
    Senator Harkin. Nothing we can do about it.
    Senator Hutchison. Well----
    Senator Harkin. Right now, as far as I know.
    Senator Hutchison. At least that's what the experts are 
telling us. I----
    Senator Harkin. Well----
    Senator Hutchison. I hope that we're monitoring this very 
closely.
    Senator Harkin. Well, I assume CDC is at all the border 
points. Is that correct?
    Dr. Schuchat. You know, we have reinforced the quarantine 
presence at 19 airports. We're not at every land border area, 
but what we do is training of the Customs and Border 
Protection, so that we actually have CDC people at the training 
center, so the staff are trained in public health.
    And you've heard of many infectious agents being stopped at 
the border through this active effort of watching for illness 
and a secondary screening. So I think that we are doing things. 
We find people with infectious diseases that shouldn't cross 
borders or shouldn't get on airplanes. But we aren't at every 
border, physical land border site.

               DIFFERENTIATING THE H1N1 AND H5N1 VIRUSES

    Senator Harkin. Thank you very much, Senator. Now I'd like 
to just shift a little bit now to you, Dr. Fauci. And let's go 
back a little bit. We've had many hearings and you've testified 
here many times about the H5N1 virus. Now I'm told this is the 
H1N1. What's the difference?
    Dr. Fauci. Well, first of all, Mr. Chairman, I want to 
emphasize something that you mentioned in your opening 
statement that's very important, and to thank you and the 
subcommittee for the kinds of support you've given us, the CDC, 
the NIH, the FDA, the whole Department, Homeland Security 
(DHS), in the preparation in general for pandemics.
    Because the kinds of things that we did, as you mentioned, 
when we had discussions here and I brought up to you that we 
may be preparing for an H5N1, but it could be something else. A 
pandemic is a pandemic, and forget the letters and the numbers. 
It could be a pandemic.
    So the difference and the similarities between H1N1 and 
H5N1, which, as you know, first appeared in China over 10 years 
ago. We've been very intensively involved with that over the 
last several years; it is a virus that is a bird virus.
    It generally does not infect humans. When it does, it does 
so extremely inefficiently, and there's only very rare cases of 
human-to-human spread, usually very closely related within a 
family unit or someone who was very closely involved physically 
with the person. We don't see that kind of robust or even 
modest secondary and tertiary spread.
    So it is a high degree of lethality. As you know, there are 
about 500 or so, 400-and-something cases reported and about 50 
percent mortality. But the ability to adapt itself to spread is 
very, very marginal for the H5N1.
    And as I mentioned, it's an animal virus. It's 
fundamentally a bird virus. But it has pandemic potential. And 
the concern that we've had at the CDC and every other place is 
will it evolve molecularly or genetically to acquire the 
capability of being able to spread to humans and to continue to 
cause disease?
    Thank goodness, it has not done that. But importantly, we 
were preparing for that eventuality, which luckily has not 
occurred and hopefully never will occur.
    In the preparations for that, what we now have is a virus 
that's an H1N1 that is interesting and very complex, because 
we've never seen anything like it before. It's what we call a 
triple reassortment. I explained to you about a year or two ago 
what a reassortment is. When you have more than one virus that 
might infect a species, be it a pig or a bird or a human, in 
the same cell, the genes of these particular viruses can mix 
and match and recombine, and then you get sort of a hybrid 
virus.
    This is interesting, because we have three separate genetic 
components, one from human--a couple from human, from pig, and 
from a bird. So this is a master of that reassortment.
    The thing about it that it has, that H5 doesn't have--it's 
called a swine flu because there are swine or pig genes in 
there. It is an H1N1. And historically, even though it's 
something we've never seen before, H1N1s have the capability in 
general, as a group of viruses, to be able to infect 
individuals clearly much more readily than something like an 
H5N1.
    So even though it is an animal type of a hybrid, it has now 
shown us that it can infect humans and it can cause disease, 
again with pandemic potential. What do you mean by pandemic 
potential? Something we've never seen before. Something--in 
humans, that is. Something for which there is no background 
immunity in the population, and it's capable of widespread 
spread and disease.
    So the potential is there, but what we're focusing on very 
much is to contain--by the methods that Dr. Schuchat has 
mentioned, contain the spread of this virus in an evolving, 
dynamic situation. So one is dynamic and moving, and the other 
one, I wouldn't say is stuck, but it's there in a very 
smoldering way. Southeast Asia, occasionally you'll hear of one 
or two infections. It doesn't have the very dynamic nature that 
we're seeing with this H1N1 Influenza A swine flu. That's 
fundamentally the difference.

            ASSESSING THE GENETIC ORIGINS OF THE H1N1 VIRUS

    Senator Harkin. Well, Dr. Fauci, in my opening statement, I 
kept referring to it as the so-called swine flu. Now, please 
instruct me in this. I've been told that it doesn't necessarily 
come from pigs.
    Dr. Fauci. Right.
    Senator Harkin [continuing]. But it has a swine gene?
    Dr. Fauci. Right.
    Senator Harkin. Please explain this.
    Dr. Fauci. Yeah, sure. If you look at a virus, an influenza 
virus, there are multiple different genetic makeups, RNA and 
things like that, that form the genetic core of a particular 
virus.
    Senator Harkin. Right.
    Dr. Fauci. So viruses have it, bacteria have it, humans 
have it. It's just the genetic makeup. When you look at those 
segments through the mechanisms that I mentioned, when you 
happen to have the accidental infection of a species with 
multiple different types, these genes, because they're very 
good at it--influenza is really good at doing this--they tend 
to reassort and reconnect so that you have a hybrid that's made 
up genetically of genes from a number of different species. 
This one--a number of different viral species.
    So this particular virus, this H1N1, what we're calling 
swine flu, has genetic elements from a human influenza, genetic 
elements from a pig influenza, and genetic elements from an 
avian influenza. They all come together, and now you have this 
brand-new virus that we've never seen before that, 
unfortunately, has developed the capability of infecting a 
human and causing disease.
    Senator Harkin. I've heard that a more correct terminology 
for this might be a North American virus, because it originated 
there.
    Dr. Fauci. Well, I think there will be a lot of confusion. 
I wouldn't want to go there, Senator.
    Senator Harkin. Because it originated in North America.
    Dr. Fauci. Yeah, yeah. But we don't designate influenza 
viruses that way.
    Senator Harkin. But why wouldn't it be called an avian 
virus if it has avian genes, as well as the swine genes?
    Dr. Fauci. Yeah. It's unusual because we don't--we rarely 
see viruses that have swine genes jump species and infect 
humans. So it's just gotten that taxonomic, we call it, of how 
you classify a virus. When it has a pig gene in it, you 
generally call it a swine--a swine virus.
    The reason why we don't say swine-bird-human is that we 
don't usually see a triple reassortment. This is a very unusual 
situation.
    Senator Harkin. Okay. This is all very instructive, but for 
the public out there----
    Dr. Fauci. Right.

                     PROSPECTS FOR AN H1N1 VACCINE

    Senator Harkin [continuing]. I think what they would be 
concerned about it is how soon can we get a vaccine for this?
    Dr. Fauci. Right. That's a very good point, instead of 
worrying about names. That's a very good point.
    Senator Harkin. Don't worry about the names. How soon can 
we get a vaccine?
    Dr. Fauci. Well, right now, it's moving very rapidly. And 
we've put into effect the kinds of preparedness that you 
actually mentioned when you spoke about how we have been 
involved in investments in the technologies of being able to 
isolate the viruses and get them in a form to be able to grow 
them and get them ready for a vaccine that's usable.
    Right now, the virus, as was mentioned, has been isolated 
and characterized by the CDC. It's in a form now where it's 
being sent to the companies as what we call a seed virus or a 
seed strain or reference strain.
    Over a period of time--and that should be measured in 
weeks--that will be grown up to the point where you could 
actually start talking about the production of pilot lots that 
can be used in determining what's the right dose, does it 
induce an immune response that might be protective.
    The pilot lot process generally takes about 8 weeks or so, 
and then once you get that, you can simultaneously ramp it up 
for production so that over a period of anywhere from 4 to 6 
months or so, you may be able to start getting off the assembly 
a number of doses, so that we might have it ready for people 
several months from now, particularly in the situation that was 
mentioned by Dr. Schuchat. These kinds of viruses may come 
along in the spring and may or may not be severe and may or may 
not spread widely, but from history, we know that they can 
then, when you get to the flu season in the winter, come back 
with a vengeance. And, in fact, there are historical precedents 
for that, in what we saw in 1918, when the virus did that.
    So those are the kinds of things that are going into the 
preparation of a vaccine, but the specific answer to your 
question is that vaccine development has--the bell has rung and 
it's moving along.
    Senator Harkin. Well, again, that was part of another 
question, the flu season coming up next year. So what I'm 
concerned about--and I think I can speak for members of this 
subcommittee--is what do we need to do to provide resources to 
enable us to move as rapidly as possible to develop this 
vaccine?
    But then again, we don't know that it's going to happen. 
It's just sort of a preventative measure, right?
    Dr. Fauci. Right. Right. We--whenever we get in a situation 
like that, it is part of the plan that was drawn up years ago 
that you get the virus, you isolate it, and you proceed towards 
developing a vaccine, at least the seed pilot lots, to see 
where the situation is going.
    Because as we've been describing, it's very dynamic, and it 
clearly is a high possibility, probability, that we would need 
and want a vaccine for this. And that's the reason why we are 
proceeding along the line that is a step-by-step process of 
getting a vaccine against this particular virus.
    Senator Harkin. So far, the virus seems to--except in 
Mexico, they have had deaths----
    Dr. Fauci. Right.
    Senator Harkin [continuing]. But not in the United States. 
Is there some difference why it seems to be more virulent in 
Mexico than here?
    Dr. Fauci. Well, we don't know the answer to that, but as 
Dr. Schuchat mentioned--well, I'll let her answer the question, 
because she alluded to that in her statement to you before.
    Senator Harkin. Yes. Dr. Schuchat.
    Dr. Schuchat. You know, I think it would be wonderful if 
there's something different about what's going on in Mexico, 
that for reasons like the genetics of the population or 
medicines that they're taking when they get sick or the care 
that they're receiving, there's a more severe course.
    But I think that we are really at early days here in the 
United States, and we may see a worsening of the disease that 
we're seeing. Influenza viruses are notorious for changing. 
They can get more severe and less severe. And I don't think we 
have enough information yet from Mexico or from the United 
States or other countries to be confident that we won't also 
see a severe spectrum of disease here.
    Dr. Fauci. Yeah, what we call the ``N'', the number of 
cases in Mexico clearly is much larger than the number of cases 
in the United States. So it would be premature to make a 
definitive statement about what the pattern is going to be in 
the United States compared to Mexico. That's the reason why 
it's being followed so closely by the CDC and is in a dynamic 
state. You can't make a definitive statement right now. That 
would be premature.
    Senator Harkin. Okay. But what I take from what you've just 
said is that we should be very aggressive in pursuing the 
development of a vaccine.
    Dr. Fauci. Yes.
    Senator Harkin. And we should do that as soon as possible 
to get as many doses ready as possible for the next flu season.
    Dr. Fauci. That process is ongoing right now. The decision 
of whether to get--and this is something that is being 
literally discussed as we move along, of whether you're going 
to get a vaccine or need a vaccine as a vaccine against the 
pandemic or whether you're going to take that vaccine and 
incorporate it into a seasonal one for the next season.
    And that's under very active discussion now of what the 
pathway would be. But the direct answer to your question is 
that the vaccine is and will be developed.
    Senator Harkin. Yes. Well, again, we need further 
discussions with you and with the CDC and, of course, with 
Health and Human Services to find out just how much resources 
we need to come up with.
    The second part of this is the money the Congress put into 
this, we've developed I think a stockpile of about roughly 50 
million, antivirals for pandemic flu. Are those antivirals 
effective against this swine flu, or so-called swine flu?
    Dr. Schuchat. You know, we're very fortunate that the 
viruses we've isolated of the swine flu are sensitive to the 
TAMIFLU and Relenza that are in the stockpile. Unfortunately, 
this past year, the seasonal flu strains that were H1--sorry, 
the H1N1 seasonal flu strains were resistant to the TAMIFLU. 
But we're lucky that we have a lot of TAMIFLU now.
    The stockpile, as you mentioned, is about 50 million doses, 
and we've deployed now about 11 million doses to the States, 
first to the affected States, and by May 3, we'll have it out 
there to all of the States.
    But we're lucky that the current strains of virus are 
sensitive--you know, with influenza viruses, you do need to 
keep monitoring, and so going forward, we really have to keep 
our eye on this and make sure that new cases are still 
sensitive. But at this point, it does look like TAMIFLU will 
work for treatment.
    Senator Harkin. Well, that leads me to Dr. Jarris. Dr. 
Jarris, of that money I spoke about--I was looking at my data 
here--it looks like we've put out about $350 million. Now, 
that's rough. About $350 million is there for State--oh, I'm 
sorry, cumulative is $600--$600 million. Sorry. I looked at 
$350 million--that was the original one. So we've got it up to 
$600 million that has gone to the States. So we can get the 
antivirals out, plus I guess masks and----
    Dr. Schuchat. Face shields and----
    Senator Harkin. Breathing devices.
    Dr. Schuchat. Gowns and such, yeah.
    Senator Harkin. Pardon?
    Dr. Schuchat. Masks and then respirators, which are a 
better kind of mask for healthcare workers type situations, and 
gowns and so forth.
    Senator Harkin. So those are all going out to the States.
    Dr. Schuchat. Right, uh-huh.
    Senator Harkin. Now, tell me, Dr. Jarris, do the States 
then have the capability of getting that out rapidly?
    Dr. Jarris. Yes, well, Senator--Senator Harkin--excuse me, 
Chairman Harkin, let me first start by saying thank you for 
your wisdom when you, in 19--in 2006, put forth this funding so 
we could be at the point we are of preparedness today.
    And when you did that, as you said, of the $7 billion, you 
did, in the subcommittee, put $600 million in for State and 
local pandemic influenza preparedness. That did come through in 
two increments, a $250 million and a $350 million increment, 
which we greatly appreciate, and it is, again, why we are today 
where we are, where every State has a pandemic flu plan, every 
State has drilled that pandemic flu plan, and right now, every 
State is activating that pandemic influenza plan.
    Some of the assumptions we made in the original planning 
turned out not to be the case. We assumed that this virus would 
start overseas. It didn't. It started in North America. So 
we're actively working with the Centers for Disease Control and 
State and local government to modify our plans as we go forth.
    So the investment is critical. We, unfortunately, are at 
the place where as in August 2008, that investment was 
expended, and since August 2008, there has not been any money 
for--to support State and local pandemic influenza planning.
    So we're at a point of critical need where we have the 
plans, we're exercising them, but we've run into a situation 
where there's no further investment to continue to develop and 
refine these plans.
    At the same time, we've seen declines in the Federal, 
State, and local preparedness money that comes out of CDC and 
declines in the hospital preparedness money that comes out of 
HHS, on top of which we all know the economic situations of the 
States right now are very dire.
    Senator Harkin. That's a question I have. The State budgets 
have been drastically cut over the last year or two. Again, is 
your association concerned about this? Have you seen any impact 
on their public health capacity?
    Dr. Jarris. Yes, we clearly have. We have seen--and yes, we 
are concerned. We have seen at the State and local public 
health level close to 12,000 layoffs in the past year.
    Senator Harkin. Wow.
    Dr. Jarris. We anticipate an equal amount in the coming 
year. We are seeing States drop whole programs, wholesale, as 
well as we are seeing cutbacks in services. Well, what not 
everyone may appreciate is we don't have a preparedness force 
ready and waiting for whether it's a pandemic or floods, as you 
had, or the hurricanes, as Senator Bailey had--Senator 
Hutchison had.
    This is the regular public health workforce, the nurses, 
the epidemiologists, the laboratorians, who then kick into 
action and take on an entirely new job for preparedness, and 
that is what's going on in pandemic influenza--with the 
outbreak right now.
    Senator Harkin. But with all those layoffs and those 
cutbacks, how can you assure me that the States are ready to 
get this out in a hurry in case we have outbreaks in our State 
that multiply overnight?
    Dr. Jarris. I can assure you that we will do everything 
humanly possible. We have a very dedicated workforce. However, 
I think you are absolutely correct in identifying a 
vulnerability here, where in the face of these cutbacks and 
layoffs and vacancies, we don't even have the workforce we had 
two years ago when we had the preparedness funding to do our 
drilling.
    Senator Harkin. Well, Dr. Jarris, and I diverge here a 
little bit, there is a lot of talk about doing healthcare 
reform this year. And I'm not going to get into that at this 
hearing.
    But I think what is happening right now makes it crystal-
clear that the public health departments, both of our State and 
our Federal Government, have been inadequately funded in the 
past. They seem to be the first to be cut in budgets, and then 
when something like this rears its ugly head, we find we may 
not be as prepared as we should be.
    And so I think that we have to remember this--we can't 
forget this--that when we move ahead now, we have to strengthen 
the public health sector----
    Dr. Jarris. Right.
    Senator Harkin [continuing]. Of our country, State, local, 
and national.
    Dr. Jarris. And I thank you for stating that, and I believe 
it's true. We don't look at our fire departments and say, ``We 
haven't had a fire in a week. Let's shut it down.''
    Senator Harkin. That's right.
    Dr. Jarris. We are facing the same issue right now in 
public health, though. We, I would say, are at a critical 
resource and workforce point within public health at a time 
when the demands are tremendous.
    Senator Harkin. Well, that's why I say that I am very 
concerned about the ability of the States, I know they're going 
to do everything they possibly can, but with 12,000 layoffs and 
cutbacks in State budgets, I remain deeply concerned about 
their ability to rapidly answer a growing pandemic in some 
areas of some States.
    Dr. Jarris. And for that reason, I'd urge you, as you look 
at the appropriation--the supplemental appropriation--and we 
thank you for doing that--that we keep in mind that there are 
two types of funding here. There is certainly the type of money 
that goes for vaccine development, for research, for testing, 
and development of new techniques.
    But equally important, we need the workforce on the ground 
so when we have that vaccine, we can put it in people's arms. 
When we have that TAMIFLU, we can get it out to people. And as 
Dr. Fauci and Dr. Schuchat said, even if this were to peter out 
right now, which it doesn't look like we could at all predict 
at the moment, if it were to come back in the fall and we had a 
vaccine available, we certainly need to make sure we have the 
public health workforce there to get that vaccine to people and 
deliver it.
    And I think your--the stimulus supplemental funding that 
you're discussing, if it were to come forward in the near 
future, would allow us to meet that demand in the fall.
    Senator Harkin. Well, you could be very helpful in giving 
us some idea of what would be required in that supplemental. I 
mentioned earlier that I intend to put that $870 million back 
in there. Now, what more might be needed----
    Dr. Jarris. Well----
    Senator Harkin [continuing]. To assist the States?
    Dr. Jarris. Thank you for asking. The $870 million would 
actually not assist the States, in terms of preparedness.
    Senator Harkin. That's right. No, it was not intended----
    Dr. Jarris. Right.
    Senator Harkin. That was intended only for the vaccine 
development and to get our laboratories built more rapidly.
    Dr. Jarris. Right. We would propose--and this is 
conservative--the $600 million that you had provided us in the 
past came at a $250 million and a $350 million. So 
conservatively, we would say the $350 million as an additional 
increment for planning and preparedness would allow us to 
handle the situation right now, if it didn't become a full-
fledged pandemic, but allow us to continue the planning.
    Now, we would have to come back to you in the face of a 
full-fledged pandemic, as I'm sure the CDC and the NIH would, 
to really gear up for that. But $350 million for State and 
local preparedness we think will allow us to resume the 
planning level we had until August of 2008.
    In addition, we are about 8 million courses of antivirals 
short in the State stockpiles.
    Senator Harkin. That's right.
    Dr. Jarris. So we would need about $122 million to bring 
the State antiviral stockpiles up to the benchmark goals that 
were established.
    Furthermore, we are hearing--and Tom Harkin and your 
State--I'm sorry, sir. Tom, in your State, the State health 
official has been hearing from the hospitals. We've all been 
hearing from the hospitals. They are very concerned about the 
healthcare workers and the public health workers. So we are 
asking for $563 million to purchase personal protective 
equipment and antivirals for the prophylaxis of healthcare 
workers, critical infrastructure workers, and public health 
workers.
    There's a great concern--not only do we owe it to the 
people who are on the front lines to be protected, but we've 
been hearing from the hospitals that they're concerned about 
people showing up for work if they aren't offered personal 
protection when they put themselves in harm's way.
    So those three, the $350 million for State and local 
planning, the $122 million to bring State stockpiles up to 
goal----
    Senator Harkin. Up to 31 million.
    Dr. Jarris. Excuse me?
    Senator Harkin. That brings it up to the 31 million, from 
23 to 31 million doses.
    Dr. Jarris. That would get us to a total of 75 million, 
which was the goal of the stockpile nationally.
    Senator Harkin. Oh, I'm sorry. You're talking about the 
national. The current pandemic planning--States purchasing 31 
million.
    Dr. Jarris. Okay. Yes.
    Senator Harkin. So far, States have purchased 23 million. 
That's 8 million less than what the plan was.
    Dr. Jarris. Yes, sir. So the $350 million for preparedness, 
the $122 million for State stockpiles, and the $563 million so 
that we have the antivirals for first responders and hospitals. 
Antivirals and----
    Senator Harkin. Protective gear.
    Dr. Jarris [continuing]. Protective gear, yes.
    Senator Harkin. Well, I--we'll do what we can. We have a 
supplemental coming up. Much of that supplemental will be 
Defense related and Homeland Security related. I can't think of 
anything more--that would--near more to our defense than 
Homeland Security than making sure that we have adequate 
protection for our people in case of a pandemic.
    Dr. Jarris. And I would think history would bear that out.
    Senator Harkin. Absolutely.
    Dr. Jarris. The 1918 experience affected the military as 
much as the civilian population.
    Senator Harkin. Absolutely. When I come back, Dr. Schuchat, 
I have some more questions for you regarding CDC's response to 
this. Dr. Clifford, we haven't gotten to you yet, but I want to 
talk to you again about swine and what you're seeing, in terms 
of swine out there, and we'll get to that. Maybe some others 
have questions about that.
    But when we started this process several years ago, 
building up our capacity to respond to a pandemic, to build the 
facilities needed for cell-based production, the chairman of 
this subcommittee was Senator Specter from Pennsylvania. We 
have been a great partnership on this. We've changed back and 
forth from chairman to ranking member more times than I can 
probably count.
    But it's been a great partnership. And he was one of the 
great leaders in, again, foreseeing and working together with 
so many others to make sure that we had the money in there to 
get us started on this pathway. So I would yield now to a great 
partner and a great friend and a great leader in healthcare, 
Senator Arlen Specter, Pennsylvania.

                   STATEMENT OF SENATOR ARLEN SPECTER

    Senator Specter. Well, thank you very much, Mr. Chairman, 
and thank you for convening this important hearing on emergency 
basis. And thank all of you for coming in to testify.
    Senator Harkin has gone over the financial needs, and we 
will try to be very responsive to see to it that adequate 
funding is provided. There is great public concern, as is 
evidenced by the front pages, news media accounts as to what 
the situation is. And there has to be a careful balance in what 
is said to inform the public of the problem, but not to 
articulate it in a way which might cause undue alarm.
    We had these hearings, as the chairman has said, in the 
past. In 2005, we had the testimony of John Barry, who wrote 
the book ``The Great Influenza'', tracing what has happened in 
prior years, where they have had such cataclysmic results, with 
so many people dying in the United States and elsewhere in 1918 
and in 1957 and 1968.
    And when we looked at the issue before, there was concern 
about avoiding crowds or the issue of whether people ought to 
go to work or what kind of precautions ought to be taken. And 
that has to be stated from the experts, so that people have an 
idea as to what the risks are and what ought to be done.
    But at that time, there was a lot of talk about stockpiling 
food, stockpiling water. Well, I don't know if that's 
warranted, but people are going to be starting to think about 
that. We don't want to cause a mass rush on those commodities, 
but we also want to be thoughtful. And the people who provide 
those commodities have to be on notice as to what requirements 
there may be.
    I regret that I can't stay longer, but this is a 
complicated day for me. That's not a laugh line, by the way, 
but you can laugh. Who am I to say? But thank you very much, 
Senator Harkin, and thank you for your good words.
    This subcommittee has operated at a very, very high level 
of concern for the issues of health. What this subcommittee has 
taken the lead on, on funding for the National Institutes of 
Health, Dr. Fauci may know something about that.
    I spoke in Chicago on Saturday at a meeting of 600 
scientists, and they were delirious. Not sick-delirious, but 
delirious for $10 billion, which was in the supplemental. When 
this subcommittee took the lead in increasing the funding in 
NIH from $12 to almost $30 billion, a lot of reductions in 
deaths due to stroke and heart attacks. Not quite so much from 
cancer, but a lot to be done. So thank you for what you are 
doing. And I'd like to see my other colleagues here today.

                           PREPARED STATEMENT

    Senator Harkin. Again, Senator Specter, thank you so much 
for your leadership and friendship over the years.
    [The statement follows:]
              Prepared Statement of Senator Arlen Specter
    I want to thank Senator Harkin for calling this hearing to discuss 
U.S. efforts to combat the swine flu outbreak.
    This subcommittee has been at the forefront of addressing the 
pandemic flu issue. This is the fourth hearing that this subcommittee 
has held on pandemic flu--we held our first hearing on November 2, 
2005, and we also held hearings in 2006 and 2007. Senator Harkin and 
I--on October 27, 2005, during the floor debate on the 2006 Labor-HHS 
bill--offered an amendment which was adopted by the Senate to provide 
$8.095 billion for pandemic flu.
    To date we have appropriated $6.1 billion for pandemic flu 
activities. As I understand there is still $528.5 million from prior 
year funds and another $507 million that was appropriated in fiscal 
year 2009 that is still available to be spent.
    We have a distinguished panel of witnesses before the subcommittee 
today and I look forward to their testimonies.

    Senator Harkin. I will now recognize Senator Kohl.

                     STATEMENT OF SENATOR HERB KOHL

    Senator Kohl. Thank you very much, Mr. Chairman. Just to 
carry on and get some response from some of the queries that 
were posed to us by Senator Specter, what is the level of 
concern that we're trying to convey to the America people, in 
terms of what we know and what they need to be responsive and 
concerned about today, tomorrow, the next day.
    Maybe you've covered this, but I didn't get--have you 
stated your level of concern, how serious this is? If people 
get sick with what is diagnosed as swine flu, how sick are they 
going to be? Do they simply stay home for a few days? Do we 
know the answers to those things? What are the practical things 
that the American people need to be told?
    Dr. Schuchat. Senator Kohl, the situation is concerning. 
People are concerned, and so is the CDC and the rest of 
Government, really. And I think it's a concern that can have 
focus.
    The situation in the United States is that we have had 64 
confirmed cases. Most of them have not required 
hospitalization, but now we have five that did need to go in 
the hospital, at least. And we really need to be prepared for a 
worsening. But unfortunately, we can't completely predict 
what's going to happen. It could really tail off or it could 
get worse, and it might even get much worse, looking to Mexico, 
where it appears that it is much worse.
    The good news I think is that we've been preparing for 
years. We've been exercising--based on the efforts of Congress, 
really, we've been able to invest in preparedness and 
strengthen the capacity at the State and local level, at the 
Federal level, with a lot of good research, with investments in 
assets like antiviral drugs.
    So I think that we have been planning for something like 
this. We hope that it won't get worse. There's a lot that 
individuals can do. They can stay alert to what's going on in 
their community. I think a difficult thing right now is that 
information may be conflicting. What's going on in New York 
City is not the same thing as what's going on in Virginia or 
Wisconsin.
    So we need people to look to their local authorities, their 
public health authorities, for guidance where they are. At CDC, 
we've been trying to issue national guidance, and it's always 
interim, because we'd like to make sure we update our 
recommendations as we learn more.
    But we have issued recommendations about community 
mitigation. Once a case of swine flu is identified in a new 
place, we've put some advice out about taking aggressive steps 
to limit its spread in that new place so that it doesn't get 
bad, it doesn't get like the Mexico situation.
    And that guidance just went up yesterday, I think, about 
staying home when you're sick, isolating yourself, about how 
your household members should take care of you, designating one 
person in the family to take care of the person who's sick and 
take special measures to protect themselves.
    If it's a school child who's sick with the swine flu, we 
think that closing that school is a prudent step at this point, 
probably closing gatherings associated with that school, but 
leaving it up to the local authorities to decide whether other 
schools need to be closed, or whether general community 
gatherings need to be cut back on.
    We think it's a challenging time. At CDC, we're really 
committed to share information as we know it, to support the 
local and State health departments that are really at the front 
line, to make sure that clinicians have the information they 
need and that the laboratories have the test kits that they 
need.
    But I think it's a time where we need to be prepared for 
change, and that we don't have all the answers today.
    Senator Kohl. And isn't it also true--or isn't it true that 
this swine flu is going to be with us for some time. It's not 
going away next week or 2 weeks from now.
    Dr. Schuchat. You know, we mentioned a little bit earlier 
the idea that we might see an improvement. We might see cases 
go down, just like we see with the seasonal flu, but we need to 
be prepared that this strain is out there now and it might come 
back in the fall.
    And so the scientific and public health community are 
planning and discussing contingencies. If it does come back, 
what does that mean? Issues like preparing vaccine strains that 
can be handed off to industries so that if we make a decision 
to go ahead and produce a lot of vaccine, we can figure out 
about that.
    So there's a lot of dialogue and discussion going on to 
really use what we know about this particular swine flu strain, 
what we know from history when there were pandemics and how 
those evolved, and really I think preparing the country for a 
period of uncertainty and a commitment that we'll stay with you 
as we know more.
    Senator Kohl. Thank you. Dr. Clifford?
STATEMENT OF JOHN R. CLIFFORD, DVM, DEPUTY 
            ADMINISTRATOR, VETERINARY SERVICES, UNITED 
            STATES DEPARTMENT OF AGRICULTURE
    Dr. Clifford. Senator Kohl, you asked about what we should 
be telling the public. Dr. Fauci earlier explained the 
complexity of this particular virus, and while I know there's 
not concern on the human side about the name of this virus, 
there certainly is on the animal agriculture side.
    Calling this virus swine flu, when we have not even shown 
this virus to affect swine as of yet, is alarming, because it 
causes undue alarm to the public and to our trading partners 
with regards to the safety of pork.
    We have not found this particular virus at all in swine as 
of yet in the United States, nor have viruses in swine been 
associated with any human illness as of yet. That's not to say 
it couldn't happen in the future.
    At this time also, I'd like to state that with regards to 
this virus, it should be called something else, but I recognize 
because we're already calling it swine flu, it's likely to stay 
swine flu. But this is not a food safety issue. Pork is safe to 
eat. Thank you.
    Senator Kohl. It's a very important point to make, and I'm 
glad you made that point. Dr. Clifford, you're the head of 
APHIS?
    Dr. Clifford. I'm the head of APHIS Veterinary Services.

                          APHIS RESOURCE NEEDS

    Senator Kohl. Okay. Now, APHIS, as you know, has the 
responsibility of monitoring and responding to any outbreaks of 
animal disease. Your efforts are key to helping us understand 
and control this flu as it occurs in animals, as well as 
understanding and relating any potential transmissions between 
humans and animals.
    So are we certain that APHIS will have sufficient resources 
and leadership to do its job during this time of surveillance?
    Dr. Clifford. Thank you, Senator, for that question. We're 
evaluating our resource needs, and certainly, as we evaluate 
those, we will be working with the Secretary and providing 
those needs to Congress.
    But along that line, I would like to say that when we on 
the animal health side talk about swine flu, just like humans 
have flu seasons, swine have a flu season, as well. It's the 
same with poultry or avian.
    A large percent of the adult swine in this country are 
vaccinated for swine influenza viruses, both H1s and H3s. 
Actually, about 70 percent of adult breeding swine are 
vaccinated.
    We vaccinate for viruses that cause influenza in swine. 
Influenza in swine is endemic in the United States, so we will 
occasionally see cases, but we have not seen this particular 
virus.
    We're actively reaching out to the States for any unusual 
cases and any cases associated with public health issues. We're 
working very closely with CDC and DHS on this. In fact, the 
secretary is meeting today with DHS at 3:15 p.m. to further 
discuss our response plans.
    In addition, I'd like to add that we're working very 
closely with CDC in implementing--and actually, we started a 
year ago--implementing an enhanced surveillance program for 
swine flu influenza viruses in order to better adopt and 
develop diagnostic tests as well as better vaccines, both for 
the animal health side as well as potentially for human health.
    Senator Kohl. Thank you.
    Senator Harkin. Thank you very much, Senator Kohl. Now I 
yield to the newest member of our subcommittee and our 
committee--not a new senator, but a new member of our 
committee, my good friend from Arkansas, Senator Pryor.

                    STATEMENT OF SENATOR MARK PRYOR

    Senator Pryor. Thank you, Mr. Chairman. It's an honor to be 
here today. Thank you for your leadership. Let me, if I may, 
follow up with our USDA witness. Just to be clear, you said 
that pork food products are safe to eat, and that as far as 
USDA knows today, there are no pigs in the United States that 
have been infected with this virus?
    Dr. Clifford. That's correct, sir.

                       APHIS SURVEILLANCE SYSTEM

    Senator Pryor. Does that mean that USDA will continue to 
test and monitor our pork population here in this country?
    Dr. Clifford. Actually, we have a very robust surveillance 
system in general for swine illnesses and swine issues. That's 
made up by both the private sector from the private 
veterinarians to the State animal health officials and Federal 
health officials.
    If we see a degree of high morbidity or high mortality, 
those types of things are reported up and investigated, either 
through the private sector or the public sector.
    Since the emergence of this virus, we have actively reached 
out with our State partners, again, as I stated, to make sure 
that we're investigating any unusual cases that may be detected 
out there today. But there has been no detection of this virus 
thus far in our swine population.

                        EXPORTS OF PORK PRODUCTS

    Senator Pryor. Thank you. There have been press reports 
about some of our trading partners being nervous about 
accepting U.S. pork products and, based on these press reports, 
it seems that some countries have already taken action on that. 
What are the USTR, USDA, State Department, et cetera, doing to 
try to ensure that our exports of pork products are not 
affected by this?
    Dr. Clifford. Senator, we actually reached out over the 
weekend to all the posts with our trading partners, both 
through the Foreign Agricultural Service and the U.S. Trade 
Representative, as well as our APHIS personnel abroad, to give 
them the latest information, to tell them that swine are not 
involved in this situation, and to make sure that they are 
following reasonable scientific standards, as far as trade.
    And any country that takes action against the United States 
or any other country for the movement of pork or pork products 
is not following science-based standards, they're basing it on 
a nonscientific reaction.
    Senator Pryor. And have other nations taken those steps 
already?
    Dr. Clifford. Yes, they have.
    Senator Pryor. Okay. And is there any chance that they will 
lift those sanctions anytime soon?
    Dr. Clifford. Ambassador Kirk from the U.S. Trade 
Representative Office is working on this process and trying to 
work to reopen those markets.

            HHS DECISIONS AFFECTING H1N1 VACCINE PRODUCTION

    Senator Pryor. This is a question for our CDC witness. My 
staff participated on an interagency conference call yesterday, 
and the participants on that conference call discussed the fact 
that vaccine production is not automatic, and that the decision 
has not yet been made to order production of vaccine for this 
particular virus.
    My question is, first, what are the criteria for deciding 
whether to order production, and second, when will that 
decision be made?.
    Dr. Schuchat. There have been steps taken already to 
prepare for the potential production of a vaccine. CDC's 
isolation of the virus went on to prepare a vaccine seed strain 
that could then be handed off to industry for development of 
pilot lots that Dr. Fauci was speaking about that could be 
tested.
    So there's a lot that is going on. But it's a different 
question to decide to prepare to make a vaccine than to 
actually go forward and produce large amounts. And even if you 
produce large amounts, to go forward with the idea of using 
them, there are some risks and benefits involved. And, of 
course, an important issue is understanding how well--how easy 
it is to make a vaccine.
    Right now, what's going on is that experts from various 
disciplines are studying the issue, if we make a vaccine, is it 
best to make a swine flu vaccine alone? Would it be better to 
combine it with some of the seasonal flu strains that we 
usually use?
    We have a much better production capacity than we had a few 
years ago based on the investments that have been made, but we 
really will need to make some decisions about what kind of 
vaccine or vaccines will we have several months from now in the 
fall.
    So part of the criteria will be looking at what's going on 
and where this virus is in Mexico and in the several other 
countries now. Understanding more about immunity, there are 
questions about whether people who were exposed to the H1N1 
strains or the vaccines back in 1976 might even be protected 
now, questions about whether there's any cross-protection from 
the seasonal flu vaccine against this.
    So really in the days and weeks ahead, some major decisions 
will be made about that question. We're trying to be careful 
and deliberate. We are trying to learn the lessons of 1976 so 
that we learn and do as well as we can.
    So I would say that we are being aggressive in making sure 
that we can make a vaccine, but I think we want to make sure 
that there's care and attention in the decisions as they go 
forward. I think Dr. Fauci should add----
    Dr. Fauci. Yeah, there's--and thank you, Anne. There are 
multiple steps, and I tried to articulate them early on, that 
the first thing you want to do no matter what, you isolate the 
virus the way the CDC did and you immediately make a seed. 
That's automatic. That has been done, is being done.
    And then they're being handed over now to the 
pharmaceutical companies to begin what's called a pilot lot, 
and the pilot lots will be used in tests to determine what's 
the right dose, is it safe, does it induce the kind of immune 
response.
    The decisions of whether you are going to make millions and 
millions of doses and certainly, whether you're going to even 
use them, are things that are made in a step-wise process. But 
in order not to lose time, the thing you automatically do from 
the beginning is get that seed virus going so you could begin 
the process.
    You mentioned and Anne mentioned the situation in 1976, 
where vaccine was made and then deployed and utilized, and 
there were some serious consequences from that. These are 
lessons learned about that there are things that you need to 
deliberate about and be careful about. So we're doing it in a 
step-by-step process.
    Senator Pryor. And one of the things that's obviously near 
and dear to this subcommittee's heart is funding. Do you need 
any more money to do this? Maybe you've covered that, and if 
so, I'm sorry. I was a few minutes late. But do you need more 
resources to do this?
    Dr. Schuchat. You know, I'll just begin and maybe there's--
--
    Senator Harkin. If I might----
    Dr. Schuchat. Okay.
    Senator Harkin. Is the Senator asking do we need more 
resources to address this situation, or to develop our whole 
capacity in terms of vaccine production in this country? If the 
Senator is talking about this particular problem that we have 
right now I was just notified that the White House is 
announcing today that they will be asking us on this 
subcommittee for $1.5 billion to respond to this swine flu in 
the supplemental.
    Senator Pryor. Okay.
    Senator Harkin. They'll be asking for $1.5 billion. And we 
kind of went through that before. I don't know if you were here 
for Dr. Jarris's testimony of what the States need, but it's 
really a question, I think, of how rapidly we want to ramp up 
our ability to have cell-based development of vaccines in this 
country.
    As I said earlier, up until 2005, we only had one plant in 
this country that could make flu vaccines. It was egg-based and 
takes a long time. And we've been putting, as I said, more than 
$6 billion into this--rather, more than $3 billion into this, 
to develop the facilities to get cell-based development where 
we can--after they get the seed thing done and they identify 
it, then we can turn it around and make the millions of doses 
needed in a short period of time.
    Again, my response on that, from everything I know and my 
staff knows on this, yes, we do need more money. Again, depends 
on how soon we want to do this. If we want to take another 5 or 
10 years, no.
    But I think that we've had enough indications--and I'm just 
saying this from my own standpoint--in the last several years, 
first with the avian virus and now with this so-called swine 
flu virus, and the different mutations that might happen, I 
really think it behooves us to move as rapidly as possible to 
get these facilities built, so that we can develop that vaccine 
as rapidly as possible to protect our people.
    Senator Pryor. Thank you, Mr. Chairman.
    Senator Harkin. I didn't want to put them on the spot on 
about this. So again, for the record, the White House will be 
requesting $1.5 billion. Dr. Jarris, of course, we will look at 
that and see how that all fits into Federal and State efforts 
and what the States may need in that. So whatever information 
you have from your organization that you could share with us--
you already gave us the broad outline--I would appreciate that.

                             VIRUS IN PIGS

    Now, let me return here--and thank you, Dr. Clifford, for 
clearing up this. We don't have one hog in the United States 
that has this flu, that we know of.
    Dr. Clifford. That we know of, we don't have one single pig 
in the United States that has this particular virus.
    Senator Harkin. That's right. And as far as we know, we 
don't know any in Mexico either.
    Dr. Clifford. That's correct. In fact, I've received 
communication from my counterpart in Mexico, indicating that to 
their knowledge thus far, they have no pigs with this virus.
    Senator Harkin. That's why I'm really sorry that this 
seemed to take on the connotation of swine flu. I don't know 
how that happened. I opened up the newspaper this morning and 
there's a picture of pigs and hogs, as though all of them are 
affected with this.
    So I'm glad we got that out here, and that's why I wanted 
you here today, to allay the fears of people, that pork is 
safe, it's safe to eat, and also to let our trading partners 
know that actions that they may be taking to cut off purchases 
of pork is not founded scientifically whatsoever.
    Dr. Clifford. Yes, sir. And I think it's very important, 
and hopefully, the media will get that story out, as well.
    Senator Harkin. Well, I sure hope so, because it's just 
took on a life of its own there. That's why I wanted you here 
today, to do that. And I thank you very much for your responses 
to that.
    Now, I don't mean to get on a discordant note here with my 
friends, but Dr. Schuchat, in looking at this, there's an 
article that came out in the paper yesterday--I'm sorry, 
Sunday--that caught my attention.
    And according to this article by David Brown, Mexican 
public health authorities sent their initial flu samples to 
Canada because, quote--here's a quote--``The only reason the 
samples went first to Winnipeg is because the paperwork is 
easier. We were in a rush,'' Hernandez said.
    Well, the article also states that U.S. officials were 
largely in the dark about the outbreak 2 weeks after it was 
recognized by Mexican authorities. So we have spent a lot of 
money, taxpayers' money, building up CDC's lab capacity, their 
ability to recognize these right away. Canadian officials knew 
about it before we did.
    So why did this happen? Why did this happen? Why wouldn't 
they have gone--I mean, Centers for Disease Control and 
Prevention is the gold standard in the world. Everyone 
recognizes that. So why would it go to Canada before it came 
here? What's this about paperwork and they were in a rush? You 
mean to tell me CDC can't rapidly respond?
    Dr. Schuchat. Thank you. The CDC is one of four WHO 
international collaborating centers for influenza. We are 
reference laboratories for countries around the world, and we 
do receive many, many strains from Mexico all the time, as well 
as from many other countries, and from labs within the United 
States.
    So it is our practice to receive and test isolates. I want 
to make a couple comments about the timeline here, because I 
think people have been interested in that.
    On April 17, we identified the first swine influenza virus 
from California, from San Diego. And our scientists, whenever 
they find a novel flu virus, take steps to characterize it, and 
then to disseminate the information on this new virus, the 
sequence information, so that other scientists are able to look 
at it.
    In fact, I believe that the Canadians were able to figure 
out that their virus that they were testing was similar to the 
one that we had already reported from California.
    On April 21, at about 1 a.m. in the morning, we issued an 
MMWR dispatch electronically, reporting two cases of this new 
swine flu in the United States from California. They were just 
two cases, but it was a new virus, and we wanted people to know 
it was out there.
    On the 23d, we held a press briefing about additional cases 
in the United States, again not really knowing whether this was 
a big deal or a small deal, but just wanting people to be on 
the alert and to look for unusual influenza viruses, to pass 
those along to their State labs, where they could test for 
typing of viruses, because we had provided them with training 
and kits to do so, and then to send all unsubtypable strains on 
to us.
    It was at that point on the 23rd when Mexico, Canada, and 
CDC were able to connect the idea that the virus in Canada from 
Mexico was the same as the virus from--that we were testing in 
the United States. So in a way, really, our intensified 
surveillance in the United States brought to light the 
characteristics of the problem in Mexico.
    Before that, reports of increased respiratory disease from 
Mexico were publicly being discussed and consulted upon. 
Respiratory infections are very common, and increases and 
decreases are hard to interpret. The testing that was being 
done at that point suggested a mixture of seasonal influenza 
virus strains, as well as many unknown causes.
    So we get reports of increases of disease frequently, and 
we look into them and provide support. But I think in this 
case, our rapid dissemination of the U.S. situation has 
accelerated our recognition of the problem. We don't like it 
when people find our bureaucracy difficult, and I really am 
committed to making sure that we can serve communities here in 
the United States, as well as our partners outside of the 
country.
    So I think I'm as disappointed as you are in the reports 
that our bureaucracy was difficult, and I would like to be able 
to do better. But I'm really proud of my staff and their 
aggressive work on identifying these first couple cases and 
issuing guidance or issuing a report quickly and getting the 
word out, so others could be looking for it.
    Senator Harkin. I might ask you, Dr. Schuchat, that--and 
I'll ask your superiors down there also at CDC to respond to 
this, and I want to find out why the paperwork is easier when 
it went to Winnipeg. Is Winnipeg one of the four?
    Dr. Schuchat. No. No, it's the United States and Australia 
and Japan and England.
    Senator Harkin. Huh. Well, I really want to follow through 
on this, and why--what's the paperwork difference? It would 
seem to me that--just--I--maybe I'm being a little chauvinistic 
here, but--because I worked so long with CDC for so many years, 
and I've traveled around the world, and everyone just looks to 
the CDC for--that's where you go. And so I'm just shocked that 
they would go to some other place, quite frankly.
    Dr. Schuchat. Well, and I think we'd be happy to respond on 
the record about that. And I know they have been sending us 
strains and we've characterized their viruses, as well.
    Senator Harkin. Right. Well, let's take a further look at 
that and see if there's anything else that we need to do. I do 
have a couple more questions that I want for the record here 
before we recess.

    DISCUSSING THE WHO PANDEMIC INFLUENZA PREPAREDNESS PHASE RATING

    Again, I suppose Dr. Fauci would be the proper person to 
ask this to, is--both of you, I guess. The World Health 
Organization raised this from Level 3 to Level 4. Do you concur 
that it should have been done?
    Dr. Fauci. Yes. Yes. Yeah, but as the CDC has determined 
and actually publicly stated, we're proceeding along in a very 
rapid way in the kinds of interventions and the community 
mitigations and all the other things that we're talking about. 
And it really doesn't matter what that number was, I think you 
would agree, Dr. Schuchat.
    But the answer is, we agree with elevating it, yes.
    Senator Harkin. As Senator Specter said earlier, we 
provided--again, with his great help and assistance, we 
provided $10 billion, as you know, in the recovery bill, the 
stimulus bill for NIH.
    And again, maybe this is something we need for the record 
later on, but I'd like to know just how much of that might be 
going for research, flu research, influenza research. As I've 
said many times in this subcommittee from this position, that 
we don't think about influenza, but it costs us a lot of money 
every year. A lot of people die of influenza every year. It 
costs us a lot of hospital stays. It's not only a very 
expensive, but a very life-threatening illness, and very 
transmissible.
    So it seems to me we need to figure out how much of that 
we're actually--what are we looking at, in terms of flu? And 
that may be for another hearing later on, but I hope you'll be 
thinking about that, how much of that goes there.
    Well, that's all that I really wanted to cover. Do any of 
you have anything to add or to illuminate on this issue at all 
for the public out there at all, that--anything that I haven't 
asked that I should get on the record?

   ADDRESSING THE SUBCOMMITTEE'S ROLE IN PREPAREDNESS FOR INFLUENZA 
                                PANDEMIC

    Dr. Fauci. Just one thing. I wanted to just reiterate what 
I said before, Mr. Chairman. Really, thank you very much for 
the support that this subcommittee has given over the years to 
get us to the point of preparedness where we are right now. 
That's critical, and I think the American public should know 
that we are where we are right now because of the support from 
a number of sectors, but certainly predominately from your 
subcommittee. Thank you very much.
    Senator Harkin. Well, Dr. Fauci, thank you very much. But 
again, I would return the compliments to you and to the Centers 
for Disease Control and to ASHTO, Department of HHS--all of us 
working together on this.
    It's been a joint effort, and I appreciate all the great 
leadership that you have provided, Dr. Fauci, through all the 
years on infectious diseases, not just influenza, but on AIDS 
and everything else, that you've provided great leadership for 
our country, and I deeply appreciate your service.
    To summarize--let's see if I can summarize. I've been 
taking notes here. The antivirals that we have stockpiled, plus 
other devices, implements and such, are being sent out to the 
States right now. That's going out.
    The surveillance has been heightened, and the CDC is 
providing surveillance in this country and jointly along with 
Mexico and other countries to keep tabs on what's happening.
    Third, we are developing a vaccine. Is that correct? We're 
developing the seed----
    Dr. Fauci. We're taking the steps to get us on the pathway 
to being able to develop a vaccine. The seed----
    Senator Harkin. Right.
    Dr. Fauci [continuing]. Virus and the initial growing it up 
to get it to be able to make a pilot lot is already launched.
    Senator Harkin. Right. Got it. My fourth number, I said 
people should not panic on this. But there are things each 
individual can do. Be careful about coughing and sneezing and 
washing hands and things like that. And if you do feel ill, if 
you have a temperature or any respiratory illness, stay at 
home, or at least consult with your doctor, your health 
professional at that point.
    And number five, pork is safe. It's safe to eat, it's safe 
to handle, and no hogs in the United States has this, or 
anywhere else, that we know of.
    Dr. Jarris, six, States are under a strain right now, as I 
understand it, to rapidly respond because of budget cutbacks 
and layoffs, and there is a drastic need, as I understand it--
you can correct my language--a drastic need for some assistance 
in our supplemental, so that States then can take what the CDC 
is doing and what the Federal Government is doing and get it 
out to localities in a hurry.
    Is that about correct?
    Dr. Jarris. Correct.
    Senator Harkin. Seventh--I just made this note. I said that 
President Obama--I knew it was a good thing that he was a 
former member of our Health Committee. President Obama has 
requested $1.5 billion in the supplemental and we will look at 
that to see how that should be divided up and whether there 
should be any more. From what we've added up, it might have to 
be a little bit more than that. I don't know. But we want to 
make sure that we don't shortchange what we have to do to 
protect our people in this country.
    So with that, I thank you very much. You were very kind, 
all of you, to come on short notice. I believe this has been 
very helpful, both to us and information-wise, but also 
information to the general public, so that they know where we 
are, what's happening, and they can have the confidence that we 
are responding with every resource that we have available. And 
I thank you very much for--all of you, for coming.

                         CONCLUSION OF HEARING

    With that, the subcommittee will stand recessed.
    [Whereupon, at 2:38 p.m., Tuesday, April 28, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
